<html>
<title> - [H.A.S.C. No. 114-139] 15 YEARS AFTER 9/11: THE STATE OF THE FIGHT AGAINST ISLAMIC TERRORISM</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]




                                  
 
                         [H.A.S.C. No. 114-139]

 15 YEARS AFTER 9/11: THE STATE OF THE FIGHT AGAINST ISLAMIC TERRORISM

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                           SEPTEMBER 21, 2016
                           
                           
                           
                           
                           
                           
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]         
 
 
 
 
                           
                           
                          _________

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 22-457                  WASHINGTON : 2017       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001   
                                    





                                     
                      COMMITTEE ON ARMED SERVICES
                    One Hundred Fourteenth Congress

             WILLIAM M. ``MAC'' THORNBERRY, Texas, Chairman

WALTER B. JONES, North Carolina      ADAM SMITH, Washington
J. RANDY FORBES, Virginia            LORETTA SANCHEZ, California
JEFF MILLER, Florida                 ROBERT A. BRADY, Pennsylvania
JOE WILSON, South Carolina           SUSAN A. DAVIS, California
FRANK A. LoBIONDO, New Jersey        JAMES R. LANGEVIN, Rhode Island
ROB BISHOP, Utah                     RICK LARSEN, Washington
MICHAEL R. TURNER, Ohio              JIM COOPER, Tennessee
JOHN KLINE, Minnesota                MADELEINE Z. BORDALLO, Guam
MIKE ROGERS, Alabama                 JOE COURTNEY, Connecticut
TRENT FRANKS, Arizona                NIKI TSONGAS, Massachusetts
BILL SHUSTER, Pennsylvania           JOHN GARAMENDI, California
K. MICHAEL CONAWAY, Texas            HENRY C. ``HANK'' JOHNSON, Jr., 
DOUG LAMBORN, Colorado                   Georgia
ROBERT J. WITTMAN, Virginia          JACKIE SPEIER, California
DUNCAN HUNTER, California            TAMMY DUCKWORTH, Illinois
JOHN FLEMING, Louisiana              SCOTT H. PETERS, California
MIKE COFFMAN, Colorado               MARC A. VEASEY, Texas
CHRISTOPHER P. GIBSON, New York      TULSI GABBARD, Hawaii
VICKY HARTZLER, Missouri             TIMOTHY J. WALZ, Minnesota
JOSEPH J. HECK, Nevada               BETO O'ROURKE, Texas
AUSTIN SCOTT, Georgia                DONALD NORCROSS, New Jersey
MO BROOKS, Alabama                   RUBEN GALLEGO, Arizona
RICHARD B. NUGENT, Florida           GWEN GRAHAM, Florida
PAUL COOK, California                BRAD ASHFORD, Nebraska
JIM BRIDENSTINE, Oklahoma            SETH MOULTON, Massachusetts
BRAD R. WENSTRUP, Ohio               PETE AGUILAR, California
JACKIE WALORSKI, Indiana             (Vacancy)
BRADLEY BYRNE, Alabama               (Vacancy)
SAM GRAVES, Missouri
RYAN K. ZINKE, Montana
ELISE M. STEFANIK, New York
MARTHA McSALLY, Arizona
STEPHEN KNIGHT, California
THOMAS MacARTHUR, New Jersey
STEVE RUSSELL, Oklahoma

                  Robert L. Simmons II, Staff Director
                 Alex Gallo, Professional Staff Member
                      William S. Johnson, Counsel
                         Britton Burkett, Clerk
                         
                         
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Smith, Hon. Adam, a Representative from Washington, Ranking 
  Member, Committee on Armed Services............................     2
Thornberry, Hon. William M. ``Mac,'' a Representative from Texas, 
  Chairman, Committee on Armed Services..........................     1

                               WITNESSES

Jenkins, Brian Michael, Senior Advisor to the President of RAND 
  Corporation....................................................     5
Jeffrey, Hon. James, Former U.S. Ambassador to Turkey and Iraq...     3
Price, LTC Bryan C., USA, Ph.D., Counterterrorism Expert.........     7

                                APPENDIX

Prepared Statements:

    Jenkins, Brian Michael.......................................    49
    Jeffrey, Hon. James..........................................    39
    Price, LTC Bryan C...........................................    63

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Langevin.................................................    83
    
    
 15 YEARS AFTER 9/11: THE STATE OF THE FIGHT AGAINST ISLAMIC TERRORISM

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                     Washington, DC, Wednesday, September 21, 2016.
    The committee met, pursuant to call, at 10:02 a.m., in room 
2118, Rayburn House Office Building, Hon. William M. ``Mac'' 
Thornberry (chairman of the committee) presiding.

  OPENING STATEMENT OF HON. WILLIAM M. ``MAC'' THORNBERRY, A 
    REPRESENTATIVE FROM TEXAS, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. This meeting will come to order. Today the 
committee meets to consider ``15 Years After 9/11: The State of 
the Fight Against Islamic Terrorism.''
    All of us marked the 15th anniversary last week of the 
attacks of 9/11. That was an opportunity to remember and honor 
the victims of those attacks. It was also an opportunity to 
remember and honor all of those who have sacrificed to prevent 
a recurrence of 9/11.
    But it gives us, I think, not only an opportunity but an 
obligation to look back on these 15 years and look at the state 
of the fight against terrorists, what has worked, what hasn't. 
How is the threat changing? Are we adaptable to meet the change 
of the threat?
    My view is that the people in the military, the 
intelligence community, and law enforcement have done an 
incredible job to prevent another successful attack on the 
scale of 9/11. But the rest of the story is we have been lucky. 
Some of the bombs just didn't go off because they weren't 
constructed appropriately.
    Just the events of the past few days remind us how this 
threat is changing and how difficult it is to detect it and 
prevent it as well. In my view, we still have not dealt 
effectively with some of the root causes. We have not 
effectively dealt with the ideology that radicalizes people 
here and around the world.
    And it is essential, moving forward, that we not just try 
to muddle through, contain, try to prevent a catastrophe, but 
that we have a strategy that will be successful in dealing with 
the threat as it is evolving.
    As you all know, ISIS [Islamic State of Iraq and Syria] 
says even if it loses its physical caliphate, it will pursue a 
virtual caliphate. One of the questions for us, are we ready to 
deal militarily and otherwise with a virtual caliphate?
    So we face, I think, a number of serious challenges in our 
responsibility to keep the American people safe. We have some 
outstanding witnesses to help guide us through those 
challenges. But first I will turn to the ranking member for any 
comments he would like to make.

STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM WASHINGTON, 
          RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Smith. Thank you, Mr. Chairman. And I think this is a 
very appropriate hearing to gauge 15 years later where are we 
at in fighting the groups that attacked us on 9/11 and the 
ideology that is behind it. And I think the chairman laid out 
fairly well the challenges that we face post-9/11.
    We took a very clear look at it. We had a clear group of 
folks in Al Qaeda that were challenging us. And we went after 
that network. And then I think we went after that network 
fairly effectively.
    And I think it was General McChrystal at the time who said, 
``It takes a network to defeat a network.'' And we pulled 
together all the different elements of U.S. power, and our 
allies, with the intelligence, law enforcement, military and 
built a very sophisticated operations center and tracked this 
group, first, of course, in Afghanistan, and then into Pakistan 
and Yemen and elsewhere and have done a successful job of 
taking out their leadership and then minimizing their ability 
to move forward.
    What we have not been successful at is turning back the 
ideology. And that is where other groups have popped up. And, 
you know, whether it is Al Qaeda or ISIL [Islamic State of Iraq 
and the Levant] or Ansar al-Sharia, or any of, you know, Boko 
Haram, you know, dozens of different groups that adhere to this 
nihilistic, violent death ideology. That ideology has, quite 
honestly, spread since 9/11. There are more people adhering to 
it now than there were then.
    And that is the great threat. And that is what we have seen 
in Europe and here as people not directly affiliated with Al 
Qaeda or ISIL or any of these other groups, but simply pledging 
allegiance and going off and committing violent acts in their 
name.
    Now in some cases these are people who have bought into the 
ideology, but even more frightening, it now seems like this 
ideology is the last refuge for every sort of violent loser and 
loner in the world. Some of these folks, you go through their 
history, they haven't had much of a connection to this. They 
just wanted to act out and use this as an excuse to commit 
violent acts and threaten the lives of others.
    So I think the most interesting question for this hearing 
is, how do we turn back that ideology? And this is particularly 
important for our work with the Muslim world on how do we 
promote the more peaceful brand of Islam that the overwhelming 
majority of people in that religion adhere to and work with 
them to defeat the ideology?
    And the last thing I will say is I think that is a 
challenge because this is what Osama bin Laden wanted. He 
wanted a war of civilizations. He wanted the West versus Islam. 
And every time we take a look at this and, you know, cast a 
broad net and cast aspersions against the entire Islamic 
religion, we only empower Al Qaeda and ISIL and their message.
    We have to find a way to work with our friends in the 
Muslim world both at home and abroad, to confront this ideology 
and turn it back.
    And, yes, I think we have to continue the military aspect 
of it as well. If there are specific groups plotting and 
planning against us we need to know about them and stop them 
from carrying out those threats. But that is but one piece.
    The larger, and more difficult piece, and what I want to 
hear about is, you know, what is our strategy for rendering the 
ideology neutral? Ultimately that is what won the Cold War for 
us, is we proved that communism was a failed ideology. And not 
only did the Soviet Union collapse, but with the exception of a 
couple of isolated places in the world, communism collapsed. 
The entire idea behind it collapsed.
    And before we are successful in this struggle, the ideology 
that Al Qaeda and others have advanced is what we are going to 
have to defeat and what is ultimately going to have to 
collapse. And I don't personally have any easy answers for 
that. Certainly, I know some things we should be doing, but I 
look forward to hearing more about how we can approach that.
    And with that I would yield back. Thank you, Mr. Chairman.
    The Chairman. Let me welcome each of our witnesses. We 
appreciate you all being with us and the insights that you will 
deliver.
    We are pleased to welcome Honorable James Jeffrey, who has 
been U.S. Ambassador to both Turkey and Iraq; Brian Jenkins, 
senior advisor to the president of RAND, a frequent witness 
over the years on these topics; and Lieutenant Colonel Dr. 
Bryan Price, who happens to be the director of the Combating 
Terrorism Center at West Point. But he is not here representing 
the Combating Terrorism Center or the Army. He is here only in 
his personal capacity as an academic and terrorism expert.
    So we again thank you all for being here. Without 
objection, your full written statements will made be part of 
the record.
    Ambassador Jeffrey, we are pleased to recognize you for any 
comments you would like to make.

  STATEMENT OF HON. JAMES JEFFREY, FORMER U.S. AMBASSADOR TO 
                        TURKEY AND IRAQ

    Ambassador Jeffrey. Thank you, Mr. Chairman, Mr. Ranking 
Member. Thank you very much for holding this hearing on the 
15th anniversary, particularly given the events, as you 
mentioned, in the last week. The fight against Islamic 
terrorism in its various manifestations is both a key element 
of our national security and a central component in the effort 
to stabilize the larger Middle East.
    I would like to touch briefly on where we are and, in 
response to your questions, where we may be going on this 
campaign in a very broad brush. This and the last 
administration's combination of playing defense, protecting the 
homeland, and going on the offense, both with military action 
and in the effort to deal with the political roots and 
psychological and cultural and religious roots of terror, all 
in all is a good model, and we should stick with it.
    Nonetheless, as you have just indicated, there are problems 
with what we have done up to now in our success so far. 
Homeland defense, all in all, high marks. On military action, 
directly and with partners, the record is mixed.
    The U.S. was slow countering ISIS's rise, and we didn't 
react as quickly to events in Syria that have led to a major 
increase both in ISIS as a terrorist threat and in the 
underlying dysfunctionality of the region that feeds terror of 
all sorts, including terror supported by Iran, which is a major 
factor that I will touch on in a second.
    In terms of the root causes of terrorism, as the ranking 
member said, this is not something that we can do directly. 
This is something the region has to do itself. And if we try 
too hard to do it, it tends to be counterproductive, as someone 
who spent 20 years in the region. But there is much that we can 
do, and that is what I would like to talk about right now.
    First of all, this is going to take a lot of time. As we 
all know, we are already 15 years into it, and the roots of 
this problem stretch back decades before 2001. The military 
element, while it cannot solve this problem, is critical, both 
in defending ourselves, limiting the expansion of terror, and 
stopping the creation of new ungoverned zones.
    You create an ungoverned zone by one or another breakdown 
of order in the Middle East, and we have more than a half a 
dozen right now. You will get ISIS, Al Qaeda, or other 
terrorist groups, from Hezbollah in southern Lebanon, to the 
Sinai, to Gaza, to the Fatah of Afghanistan, Somalia, Libya, on 
and on. These are breeding grounds for a huge threat, not just 
to us from terror, but to the basic structure of the region.
    Now military operations, this committee and the American 
people have discussed a lot over the past 15 years. They don't 
have to be large-scale, costly or high casualty, but we have to 
thread the needle.
    If we try to transform the region, and to some degree we 
tried to do that in the last administration and in this 
administration with the surge in Afghanistan and with Libya, we 
tend to go too far, overshoot the objective, and it doesn't 
work out. On the other hand, when we pull ourselves back and 
don't respond, as I said, as we did initially with ISIS, as we 
have done in Syria, we see the problem just morphs. The problem 
just metastasizes without American presence.
    So you have to thread that needle. Enough military force, 
but not too much to challenge the American people's patience 
and sensitivities in the region.
    Those sensitivities are important if we are going to work 
with folks in the region and, in the end, they are responsible 
for the kind of cultures they have, the truces they have among 
themselves, and how they deal with the rest of the world, 
including us and Europe.
    There is a lot of work to be done. We can help, but only on 
the margins. But there are a few things we need to keep in 
mind. First of all, only a few people in the Middle East really 
endorse this kind of extreme terrorist violence.
    A much larger percent of the population, however, accept 
views of Islam that are orthodox, that are quite strong, that 
include Sharia and basically challenge modernity in some ways. 
So that means that the path we are on is very thin. We have to 
be sensitive. Sensitivity can go too far.
    One of the things I am concerned about is we seem to avoid 
speaking publicly of this threat as an Islamic terrorist 
threat. It is an Islamic terrorist threat. I am very, very 
sensitive to not generalizing, as the ranking member said, but 
if we try to hide this, people in the region, Muslims know what 
is behind this.
    They know this is struggle for the region. And to play this 
down, frankly, doesn't play very well in our own population or 
in a population in Europe. And it is very important to keep 
those people behind us.
    We have to support the governments of the region, 
recognizing that often they are going to be imperfect partners. 
But it is not just that they are partners we have. They are the 
only basis we can use to work against terror, but also partners 
throughout the region are watching how we deal with an Egypt, 
how we deal with an Iraq, how we deal with the leadership, 
again, however imperfect they are. We have to not only say what 
we are against, but what we are for.
    The United States stands, since 100 years, for an 
international order based on certain laws, national 
sovereignty, national unity, peaceful resolution of disputes, 
and the sanctity of borders. That is an important message also 
in the Middle East, because all of these are being challenged 
by movements close to or supporting terror.
    Finally, our campaign must also focus on Iran. Iran simply 
is not an acceptable partner in the war against terror, despite 
a recent article published in the United States by the Iranian 
Foreign Minister Zarif to that end.
    The theocratic Iranian regime's Islamic roots have much in 
common with Sunni Islamic extremism. It uses terror itself, 
including here in Washington. It has relations with Al Qaeda 
and Taliban elements, and undercuts international order and 
sovereignty, and thus provides a breeding ground for terror of 
all sorts.
    But in particular, and we saw this in Iraq repeatedly, 
regional states generally view Iran as a greater existential 
threat than Sunni Islamic terror. There is thus a real danger 
that if the Sunni-Shia conflict now seen in Syria emerges 
region-wide, our Sunni partners could see violent Sunni Islamic 
movements, not as threats, but as allies against Iran.
    Mr. Chairman, I will stop there. Thank you.
    [The prepared statement of Ambassador Jeffrey can be found 
in the Appendix on page 39.]
    The Chairman. Thank you, sir.
    Mr. Jenkins.

   STATEMENT OF BRIAN MICHAEL JENKINS, SENIOR ADVISOR TO THE 
                 PRESIDENT OF RAND CORPORATION

    Mr. Jenkins. Chairman Thornberry, Ranking Member Smith, 
members of the committee, thank you very much for inviting me 
to address this important issue. Fifteen years of U.S. efforts 
to destroy the jihadist terrorist enterprise have not led to 
victory in the classic military sense. Such victory may not be 
achievable in this kind of war.
    Instead, our counterterrorist efforts have achieved 
successes in some areas, far less so in others, in what is 
likely to be an enduring task. On the plus side, our worst 
fears, as you pointed out, have not been realized. There have 
been no more 9/11s, and none of the worst-case scenarios that 
post-9/11 extrapolations suggested.
    The operational capabilities of Al Qaeda and ISIL remain 
limited. The vast majority of Muslims express negative views 
toward both jihadist organizations, but even a very low 
percentage of favorable ratings still represents in actual 
numbers a large reservoir of potential recruits.
    The constellation of jihadist groups is less than it 
appears to be on a map. To be sure, Al Qaeda and ISIL have 
sought declarations of loyalty from local groups across Africa 
and the Middle East and have established a host of affiliates, 
provinces, and jihadist footholds.
    This is growth by acquisition and branding. These partners 
share a banner, but are focused, for the most part, on local 
quarrels, rather than a global jihad. There is no central 
command, no joint operations.
    ISIL has lost territory and can be defeated as a quasi-
state. Al Qaeda's central command has been reduced to exhorting 
others to fight. But these continuing calls on local 
supporters, terrorist supporters in the West, to take action 
have thus far, despite the occasional tragic event, have 
produced only a modest response. However, right now, large 
volumes of homegrown terrorists and returning foreign fighters 
pose a significant threat to our allies in Europe.
    In the United States, fortunately, the number of homegrown 
terrorists remains far less. I believe that Americans are safer 
now than they were on 9/11 in the 15 years since jihadist 
terrorists.
    Since 9/11, jihadist terrorists have been able to kill 
fewer than 100 people in the United States. True, we have been 
lucky, and while every death is a needless tragedy, this is a 
far better result than certainly was feared or expected 
immediately after 9/11.
    On the minus side, the targets of the American-led 
campaigns have survived intense U.S. counterterrorist efforts. 
Al Qaeda and ISIL have been cornered, not crushed. And we can't 
claim to have dented their determination. The jihadists have a 
powerful ideology, as both of you have mentioned. It arouses 
extreme devotion.
    However, that ideology, which we have not yet effectively 
countered, has, fortunately, gained little traction in most 
Muslim communities, especially here in the United States.
    Personal crisis is the dominant attribute of most American 
jihadists. ISIL has made more effective use of social media to 
reach a broader audience, but its advertisement of atrocity 
makes it a magnet for marginal and psychologically disturbed 
individuals.
    The Taliban remains a formidable foe. The continued 
deployment of U.S. forces will be necessary to prevent their 
comeback. The fighting in Syria and Iraq will go on for the 
foreseeable future. Foreign powers cannot impose peace from the 
outside. Faced with the loss of territory, ISIL will not quit. 
The leaders of ISIL fought clandestinely for years and will go 
underground again to continue the struggle.
    Syria and Iraq will remain fragile states, sources of 
continued violence, regional instability. The current 
partitions are likely to persist. The big problem is going to 
be that the Sunni areas in both countries could become a 
persistent badlands.
    The world will be dealing with the effluents of these 
conflicts for years to come. Thousands of foreign fighters who 
have joined ISIL cannot survive in an underground campaign. 
Indeed, the construction of the Islamic State could bring about 
a spike in terrorist activity by its scattering veterans.
    Refugees pose a long-term challenge. Those going to Europe 
right now include a large proportion of single young men coming 
from violent environments with little education. They already 
are the targets of radicalization.
    The primary threat to the United States will come from the 
ability of Al Qaeda or ISIL to inspire attacks by self-
radicalized individuals here. The United States is now better 
organized and equipped to combat terrorism, but America's 
frightened, angry, and divided society remains the country's 
biggest vulnerability. So after 15 years, there has been 
progress, but we are not through it yet.
    [The prepared statement of Mr. Jenkins can be found in the 
Appendix on page 49.]
    The Chairman. Thank you, sir.
    Colonel Price.

 STATEMENT OF LTC BRYAN C. PRICE, USA, PH.D., COUNTERTERRORISM 
                             EXPERT

    Colonel Price. Chairman Thornberry, Ranking Member Smith, 
and members of the committee, I want to thank you for the 
opportunity to testify today. I have been asked to reflect on 
the state of our counterterrorism fight since 9/11 and provide 
some lessons learned over the past 15 years.
    As an Active Duty officer, my testimony is based on my 
academic work and my personal and professional experiences. I 
am here today in my personal capacity, and my testimony should 
not be taken to represent the views of the United States 
Military Academy, the Army, or the Department of Defense.
    Congressional hearings like this allow us to reflect and 
critically analyze where we are in this conflict. I can tell 
you that our enemies are doing the same.
    In my written testimony, I highlighted a 50-page, 2008 
lessons-learned document, produced by the precursor 
organization to the Islamic State, that shows our enemies are 
in this for the long haul and are serious about learning from 
their mistakes. My written testimony contains a list of our 
many counterterrorism successes, as you just heard from my 
fellow panelists, but I want to focus my oral testimony on 
lessons learned for the future.
    To begin, the threat has evolved and metastasized in ways 
few could have predicted after 9/11. Today, the threat posed by 
jihadist terrorism is more geographically diffuse, 
decentralized, and unpredictable than it was on September 12th, 
2001.
    Nobody could have predicted that the greatest terrorist 
threat to the United States 15 years later would not be Al 
Qaeda, but its rival, the Islamic State, which now governs 
territory inside two sovereign nations. This reality should 
give us pause about the unpredictable nature of the threat and 
the challenges we face in combating it.
    So what is the best way to conceptualize this threat, 
moving forward? Unsettling as it may be, one alternative is to 
view this threat not as a war, but as a chronic disease like 
cancer. In other words, it may be worth viewing the fight 
against jihadism not as a national security threat that can be 
solved, defeated, or vanquished, but as an inevitable fact of 
modern life that can be managed and contained, but never fully 
eliminated.
    With that in mind, I offer a few lessons learned in preview 
of counterterrorism efforts in the future. First, in my 
opinion, I think we need to do more in articulating realistic 
public expectations about the threat posed by terrorism and our 
ability to combat it. It is impossible to stop all attacks in a 
free and open society, and not every terrorist attack 
represents a political failure, nor are they existential 
threats to our national security.
    These subtleties are often lost in the public discourse, 
which leads to unwarranted fear, divisiveness, and knee-jerk 
decision making. Unfortunately, ridding the world of every 
jihadist is just as fanciful as ridding the world of every 
criminal or racist. Acknowledging this is not a sign of 
weakness. It is a sign of pragmatism.
    Number two, decapitation tactics must be a part of a 
broader strategy. Targeted strikes by unmanned aerial systems 
are often the most lethal and precise methods that 
counterterrorism officials can use without putting American 
service men and women in danger. But they are not sufficient by 
themselves to defeat highly capable groups like Al Qaeda and 
the Islamic State.
    On the positive side, I have done research in this, and my 
research analyzing 207 groups from 1970 to 2008 showed that 
killing or capturing the top leader significantly increased the 
mortality rate of terrorist groups. But timing matters.
    Decapitate a group in the first year of its existence, and 
it is more than eight times more likely to end than groups that 
have not been decapitated. The effect is halved in 10 years and 
potentially nonexistent after 20 years. Decapitating strikes 
are not a silver bullet solution. They must be a part of a 
broader strategy.
    Three, we should acknowledge that the military will be a 
critical part of any effective CT [counterterrorism] strategy 
moving forward, but it is only one part, and it may not be the 
most important part for long-term success.
    I have had the privilege of briefing many of our Nation's 
top counterterrorism officials over the past 4 years, and in 
these engagements there has been one common refrain. We cannot 
kill or capture our way to victory. Our military is the best in 
the world at taking out terrorists, but long-term success in 
this conflict lies in altering the sociopolitical dynamics in 
the region. Otherwise, this conflict will be without end.
    Four, future CT strategy should do more to leverage public-
private partnerships in the war of ideas. Lamenting on the slow 
progress that the U.S. was making in this domain, the late 
Richard Holbrooke once asked, ``How can a man in a cave,'' 
meaning Osama bin Laden, ``out-communicate the world's leading 
communication society?''
    Our difficulty in this domain stems from two inescapable 
challenges. The first is overcoming the credibility gap that 
the United States has in strategically communicating these 
issues. Simply put, prospective jihadists do not turn to the 
U.S. Government for career advice.
    The second is that government bureaucracy invariably 
produces a slower, more risk-averse and uninspiring approach to 
counter-messaging that does not incentivize creativity, 
experimentation, or risk-taking. One fix for this is more 
public-private collaboration.
    The government is incentivized to fund such programs, but 
it does not have the credibility to be the primary messenger, 
and it lacks the latest marketing and advertising capabilities. 
Whereas the private sector, to include nongovernmental 
organizations, often has the credibility and the requisite 
competencies to deliver the message, but it is not financially 
incentivized to do so.
    Last, in my opinion, we need to find more systematic and 
dedicated means of understanding our enemy and exposing their 
hypocrisy to the world. The best way to do this is use their 
own words against them.
    These functions can be accomplished with more aggressive 
efforts to declassify captured battlefield documents after they 
have already been exploited for their tactical and operational 
value and made available to academic institutions like the 
Combating Terrorism Center at West Point.
    Thank you for this opportunity to testify. I look forward 
to answering your questions.
    [The prepared statement of Colonel Price can be found in 
the Appendix on page 63.]
    The Chairman. Thank you. A lot of things I would like to 
follow up on, but let me just backtrack for a second. You have 
all touched on this, but I will just ask directly.
    Looking back at the first 15 years, what is the most 
significant way that the terrorist threat to us has changed, 
looking back 15 years? Looking ahead 15 years, what do you 
think the most significant change in the terrorist threat to us 
will be? And then the third part of that is are we prepared to 
deal with that change you see coming?
    So what is the most significant way it has changed in the 
past 15 years, the biggest way it will change in the next 15, 
and are we ready for that change, I guess.
    Ambassador.
    Ambassador Jeffrey. Tough questions, Mr. Chairman. I would 
say, over the past 15 years, the thing that is most significant 
is terrorist movements have been able to exploit the changes 
and the challenges of the broader Middle East very effectively.
    A good example, and the best example perhaps, is the Arab 
Spring. That wasn't generated by radicals, let alone 
terrorists, but basically people who wanted a better 
civilization, and in many respects closer to the West, thus 
seemingly a good idea.
    The result has been, in Syria, parts of Egypt, Libya, and 
Yemen, and on the margins in other countries, a decrease of 
state authority. And who fills the gap? Terrorist groups. Their 
ability to exploit this underlying set of malignancies in this 
region is extraordinary.
    And I think that is the lesson at the strategic level I 
take from this, 1,001 things that work and things that don't. 
But now getting to the second question, what will happen, the 
risk is not that this will just continue, because believe me it 
will. The risk is that they hit a home run. We almost saw that 
with ISIS, as it consumed a third of Syria and a third of Iraq 
in 2014 and didn't look like it was going to be stopped.
    We can't have one or two more of those without bringing the 
whole region into a strudel of chaos and dysfunctionality, and 
then it will really morph in ways that we can't imagine at this 
point. How do we deal with this?
    Again, what the three of us have said. You can't directly 
deal with the core sociological, religious roots of it, but you 
can deal with the manifestations of it. I would just advocate 
you have to deal aggressively with it.
    And one of the rare things here, I would disagree a bit 
with Colonel Price, although I think I was saying almost the 
same thing as him, but I would be careful about this idea of 
the goal of containing ISIS or other terrorist movements. In 
the end, that is what we are going to accomplish.
    But if we set out to contain these movements, they will 
beat us. If we set out carefully to destroy them, we will 
probably succeed in containing them. And I think that the 
history of our relationship with ISIS from January 2014 to late 
2015 is a good illustration of that.
    So we need more aggressive action and willingness to take 
risks, not only in our public message but in our military and 
diplomatic activities. Thank you, sir.
    The Chairman. Thank you.
    Mr. Jenkins.
    Mr. Jenkins. I think that the--a couple of significant 
changes in the last 15 years. First of all, the adversary is 
now broader, more diffuse, more complex. A lot of that, as 
Ambassador Jeffrey has correctly pointed out in my view, is a 
consequence of the so-called Arab Spring.
    That itself is a symptom of a fundamental turmoil that is 
going on in this region, and we have to deal with it. But we 
are on the margins of being able to intervene to change things 
fundamentally. We simply don't have the resources to do that.
    The other thing that is clear in the last 15 years, is that 
our adversary here has been the beneficiary of these events. 
They would probably claim of the beneficiaries of God's will. 
But they have proved to be extraordinarily adaptive, able to 
morph to meet new circumstances. That is much more difficult 
for us to do. We are reacting.
    With regard to the next 15 years, first of all, I am glad 
you said ``the next 15 years'' because I think we have to 
realistically think of time horizons in those terms. This 
turmoil that we see now is going to go on. I think the 
ambassador is correct in underscoring that state authority in 
this area has weakened.
    That is clearly the case in Syria and Iraq where power on 
the ground has shifted from national institutions to militias 
that are under foreign or local, not central government, 
control and rebel formations that challenge that.
    That is happening completely across the region. In dealing 
with that and accepting a long-term thing, I think we have to 
be very, very careful about picking our tasks very, very 
carefully.
    I would agree with the ambassador that we have to destroy 
the Islamic State, so long as that exists. Without any 
illusions that the fight stops if we destroy the Islamic State, 
it has to be, and I am going to sound like the ancient Senator 
Cato on this, and furthermore, the Islamic State must be 
destroyed, but it has to be. It continues to be a source of 
propaganda, an attraction for these fighters.
    And, in addition to destroying it, I think we really do 
have to try to, for those that want to go down and make it 
their final fight, we have to close that ring around them and 
give them the opportunity to do so. Better to do it there than 
to deal with tens of thousands of them scattered across the 
globe.
    In terms of our own actions going forward, there is not 
going to be a single strategy that any of us can determine now 
that events over the next 15 years won't oblige us to revise 
and alter as new circumstances arise. That is the feature of a 
long conflict.
    But a couple of principles ought to continue, and that is, 
since it is going to be long, whatever we do, we have to be 
able to sustain it for a long time. So we have to be careful 
not to overcommit.
    At the same time, what we have learned again and again is 
prematurely walking away from these things, whether it is in 
Iraq or Yemen or Afghanistan, that just risks a comeback by the 
adversaries that we have already successfully contained, so----
    The Chairman. Okay, thank you.
    Colonel Price.
    Colonel Price. Mr. Chairman, in terms of answering those 
questions, I agree they are all three tough questions. In terms 
of what happened in the past, in the past 15 years and what has 
changed, I guess first I should just mention that my discussion 
of containment earlier does not make me think that we should 
not go on the offensive and attack the Islamic State.
    I guess my fear though is if we focus too much on defeating 
the Islamic State, and if we are unable to do that, what does 
that mean in terms of our counterterrorism credibility moving 
forward. And even I would argue that if you killed every single 
last member of the Islamic State, the ideology that is behind 
them is not. It is just going to mean it is going to be other 
groups that are going to enter the fray.
    In terms of the structural conditions that have changed in 
the past 15 years that I think are most important, I would echo 
my panelist, Mr. Jenkins, when he talks about the geographical 
diffusion.
    September 12th the threat was largely contained to the 
AfPak [Afghanistan-Pakistan] region and some other pockets. 
Today it stretches from Western Africa all the way through the 
Middle East, the Levant, South and Southeast Asia. And so that 
is obviously a challenge for U.S. counterterrorism.
    The second that has not been mentioned, but you mentioned 
in your opening, sir, was the internet, the virtual caliphate, 
if you will. I think that has really changed the jihadist 
landscape over the past 15 years and is also one of the things 
that I think presents the most challenges to us moving forward.
    The other thing I would argue in terms of the next 15 years 
that poses the greatest challenge is the exploitation of 
jihadists to exploit lack of governance or governance issues in 
places around the world. And so those two things have brought a 
very broad tent. A lot of people are gravitating towards that 
type of ideology.
    How should we fix those or what are the most promising ways 
to fix those moving forward? I think there is promise on the 
internet side of the house, and I think this goes back to my 
point earlier about public-private partnerships, and I know 
that our government is already working with the private sector 
to work around some of these issues.
    I can tell you that jihadists, particularly online, are 
very aware of the rules and limitations that they have in order 
to not come on the radar. And they are also getting more adept 
at communicating via the dark web.
    And then final challenge is, and this has been echoed by 
both Ambassador Jeffrey and Mr. Jenkins, but going back to the 
issue of lack of governance in these places, I think the United 
States has found it difficult and challenging in order to 
affect governance in other places, particularly when some of 
these countries are not as allied with us like others.
    The Chairman. Mr. Smith.
    Mr. Smith. Thank you, just two points I want to pursue. I 
want to pursue the ideology piece of it, but before I get there 
I think, you know, part of the problem, and Mr. Jenkins 
mentioned, you know, we can't leave too soon from places like 
Iraq and Afghanistan, but what I have sort of found, as we have 
tried to do this, that sort of imposing an outcome with our 
military might, whether it is in Afghanistan or Iraq or Libya 
or Syria or wherever we try to do it, has not proven to be 
terribly successful, in large part because of the credibility 
issue that Colonel Price pointed out. You know, having a 
Western army in a Muslim country, or a Western military in a 
Muslim country just fuels the problem.
    So I guess the first question would be how do we get out of 
that trap? Because it seems like, you know, when you look at 
the different countries involved, we stay too long, we get out 
too soon. I mean, you can take our state of the three examples 
of Libya, Syria, and Iraq.
    In Iraq we went all-in. You know, we, you know, and we were 
there for a long time and I know a lot of people say, well, we 
got out too soon. You know, I think if we had been there in 
those numbers for another 10 years, at the end of those 10 
years people would have been saying we got out too soon.
    So at some point, you know, like I said, Western military 
might is not going to force the outcome we want. And I think 
Iraq proved that even though some may disagree.
    In Libya, we decided, okay, we will go in, we will take out 
the leader but then we will have less of a footprint. We will 
let the locals sort of decide with a little bit of help. That 
didn't work out.
    In Syria we said, gee, you know, for a long time, there is 
really not much we can do here. Let's not make it worse and 
let's stay out. So basically all three methods have ended in 
failure. Libya, Syria, and Iraq to all varying degrees are not 
where we want them to be in this ideological struggle. So how 
do we handle that in terms of our presence?
    And then the second question is how do we deal with that 
ideology? How do we make the Muslim world move in the 
direction? And there are some groups out there that embrace 
modernity, that are willing to accept other religions, other 
viewpoints while pursuing their own. Because that is the 
ballgame, basically, is that there is not a reasonable 
alternative right now in terms of governance and religion.
    So that gives fertile ground for these, you know, crazy 
ideologies to grow. So those are the two questions.
    And then, Colonel Price, if you could start out, since you 
sort of touched on those in your opening, what is the best 
approach to handling that?
    Colonel Price. Yes, sir. So on the first question, I think 
the way we will have to move forward and what we have done 
since 9/11 is realize that this is not a unilateral fight. And 
that it is going to require multilateral efforts in order to 
make the most effective CT policy.
    That obviously entails a number of functions, building 
partner capacity, security force assistance, and those types of 
programs. But I don't think I have a good answer to, say, to 
come back with the perception problem of having the U.S. in 
those countries.
    On the second one, how to deal with the ideology, this is 
more difficult. And in your opening statement, sir, you 
mentioned some parallels to the Cold War and communism and how 
we were able to defeat that type of ideology.
    So I think the major difference that we are talking about 
here and the threats to the United States in the past century, 
when we were defeating fascism and totalitarianism, we defeated 
that largely on the battlefield. There was no mistake of who 
was the victor in that fight.
    When you want to talk about defeating the ideology of 
communism, that was done via a mix of methods to include the 
military, but I think a lot of people would say that our 
economic system had a large part in debunking that. There is 
not a lot of new nations popping up today trying to have a 
communist economic system.
    And so the difference here, though, is when you are talking 
about jihadists, they do not perceive defeat the way other 
ideologies do. And so when we defeat them on the battlefield, 
the lesson that they learn is not that this is a failed 
ideology. The lesson that they take back is that they were not 
resolved enough, committed enough to the cause, and that they 
see this as being a very long-term fight.
    And the second dynamic which we can't get around of is the 
fact that as long as the United States enjoys a significant 
amount of power asymmetry over other states but also 
specifically non-state actors, the United States will continue 
to be a convenient foil for non-state actors and jihadists that 
want to blame the United States for all their grievances. And 
so that is why I am largely so pessimistic about the fight in 
the long run.
    Mr. Smith. Thanks.
    Mr. Jenkins, earlier you had mentioned some of those 
issues. Do you want to take a stab at that?
    Mr. Jenkins. You know, I am not sure that being blamed for 
the ills of the world is necessarily new territory for us. I 
mean, the United States is blamed for the world's problems, 
blamed for not solving the world's problems, and blamed when it 
tries to solve the world problems. That comes with the status.
    Second point is for those who are really committed to this 
ideology, it would be nice to think we can bring them back in 
an ideological struggle. I am somewhat skeptical of that. I 
think for those who are truly committed this is a fight.
    So, you know, and as Colonel Price correctly points out, I 
don't know how many Nazis were left in Germany in terms of the 
mindset at the end of World War II, but it lacked the military 
capacity to inflict that on other nations, so it was defeated.
    Insofar as these particular adversaries not accepting that 
defeat, whether they accept it or not, what we want to do is 
blunt their capacity to impose it on others.
    With regard to the various models of U.S. intervention, I 
don't think under any circumstances, however exquisite our 
counterinsurgency strategies may be in terms of their 
sensitivity to local populations, U.S. troops in a foreign 
country killing local people is not going to be a winning 
formula. It may be absolutely necessary at times to conduct 
limited operations, but we want to avoid that as much as 
possible.
    First of all, it is difficult to sustain in terms of 
American political support, but also we accumulate enemies 
fairly quickly in trying to do that. So what this means is it 
is going to be indirect methods, it is going to be working with 
allies, and it is going to be working with local partners.
    Now, that is an imperfect way of doing things. And these 
coalitions and these things are going to be messy. But that is 
preferable to sending in tens of thousands or hundreds of 
thousands of American forces unless we are really prepared to 
keep them in for the next half century and to bear the price of 
doing that. And I am not even sure it would work then.
    Mr. Smith. I was going to say, I don't think it would work 
then either. I have taken up quite a bit of time.
    I want to let others get in, so I am sure someone will ask 
a question later on, Mr. Jeffrey. You can offer your comments 
on that, but I want to let other members ask questions, so I 
will yield my time.
    The Chairman. Mr. Jones.
    Mr. Jones. Mr. Chairman, thank you. And, Mr. Jenkins, I was 
thinking about your comments. The fact is I am not an 
isolationist, but I am a realist. We are $19.4 trillion in 
debt. We continue to spend billions and billions of dollars in 
Afghanistan. I don't know what we are getting out of that, 
quite frankly, except from time to time a soldier will lose a 
leg or get killed, and we keep doing it.
    And I wonder, from you three experts, well, is China 
concerned about jihadist? I don't think so. And here we are, 
because of our foreign policy that I blame both parties for. 
Bush taking out Saddam Hussein was a horrible mistake. Then 
Obama going and taking out Gaddafi was another horrible 
mistake.
    So here we are, as I think one of you said, and I am going 
to stop in just a second, you said that when we get trapped 
into a situation--they are my words not yours--that we keep 
doing the same thing. And all we are doing is enhancing those 
who hate us with drone strikes and these other strikes that end 
up killing innocent people. And then that is what they talk 
about for the next 100 years, just like the Pashtuns in 
Afghanistan who defeated the Russians.
    So what kind of foreign policy do you think makes sense, 
instead of going in this direction of spending billions and 
billions of dollars in a failed policy in Afghanistan, that we 
will continue to pass bills to keep funding it, and then at 
some point in time, when we hit $21 trillion to $22 trillion in 
debt, which might happen in the next 2 years, then our whole 
country is in an economic collapse?
    How do you get, say, a Congress to understand what is the 
right policy versus a policy of keeping to spend, spend, spend, 
and you get nothing but chaos in Afghanistan?
    John Sopko has said that corruption is worse today in 
Afghanistan than it was 16 years ago. To my comments, would you 
give me a statement in rebuttal or a statement that I am 
somewhat not off track?
    Mr. Ambassador, I will start with you.
    Ambassador Jeffrey. You are not off track, Congressman. Our 
national budget and the deficit are core national security 
concerns. Nonetheless, there are ways to do this over the long 
term without breaking the bank. There are ways to do it over 
the long term without, as Mr. Jenkins rightly said, 
antagonizing those people because we are in Muslim lands 
killing their people.
    For example, I did an inventory. We have from Pakistan to 
Egypt, in that region, long-term presence in 13 countries. In 
each country the presence is relatively minimal, but it is 
serving a good purpose over the long term securing things.
    Taken all together, I am sure it is less than the 28,000 
troops we have in Korea since 1950. And that is probably 
costing us more money than most of what we are doing in the 
Middle East.
    But we all understand that on the long run it buys us, and 
it buys the region security without getting us, at least up 
until now, in trouble. So that is the only way forward I could 
point out.
    You try to limit your commitments to be something that is 
sustainable in terms of the American public, the budget, and 
casualties, and also not try to provoke people in these 
regions. And we have been successful both in the Middle East 
and elsewhere in the world in doing that. It is not impossible.
    What is impossible and gets to the second question that 
came up, is changing the region. Because of the concerns you 
raised, Mr. Jones, people want to somehow rush in and just end 
this. We don't want to keep being there for decades, so we try 
to find a solution. We try to get to hearts and minds, and that 
is where, A, we start sending up the bills.
    Right now, the fight against ISIS, I think over the last 
year, was $7 billion. I think, this committee would know better 
than I, but somewhere around that. We burned through $7 billion 
in a few weeks in Iraq for years, and I was there to watch it.
    So I think that there is a way we can do this. But I 
realize it is hard to persuade people because this is a very, 
very good question. Thank you.
    The Chairman. Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Chairman, and thank you all for 
being here and increasing our understanding. In light of the 
discussion right now, where would you suggest that resources 
really be focused and directed in a way that perhaps you don't 
see them being directed today? And could you include with that 
any additional authorities that you think are required to 
continue this battle, essentially?
    If I can--Ambassador Jeffrey, you were going on that vein. 
If you want to focus on it a little bit?
    Ambassador Jeffrey. Bearing in mind, having just committed 
myself to limit the public's resources trying----
    Mrs. Davis. Understanding that, but where should they be 
that maybe they are not being?
    Ambassador Jeffrey. While I am personally a skeptic about 
working to try to change the mindset in the region about 
terrorism, about extremist philosophies and such, it doesn't 
hurt to try because I could be wrong and it isn't a lot of 
money.
    So that is one place where we are putting a lot of 
attention with, as you heard so far, limited success, but we 
might succeed tomorrow. We have done this in other areas, 
Eastern Europe, for example, successfully. And so perhaps it is 
worth--it is certainly worth trying.
    Secondly, intelligence. That is crucial that we know what 
is going on out there and who is coming at us as soon as 
possible. That has helped us a lot in homeland defense. That is 
something that is really vital.
    Thirdly, supporting this very limited but effective 
military force, who will not be large, who will not be tasked 
to change the mindset of whole populations, but will be given 
specific military missions that they can do.
    We can take out ISIS in Mosul. We want to do it with 
partners, which is right, but a lot of that will require U.S. 
leadership, U.S. firepower, U.S. combat experience and some 
people on the ground, at least as advisors. That is the kind of 
thing we have to reinforce as well.
    But, again, if the region is all screwed up, there is 
nothing we can do to deal with this popping up of new terrorist 
movements everywhere. So everything we can do diplomatically, 
politically, economically, and militarily to keep the region in 
the sort of calm state that we have been so successful 
elsewhere in the world, from Central and South America to the 
Balkans, that will help.
    Mrs. Davis. Mr. Jenkins, can you respond?
    Mr. Jenkins. You know, in all of the questions that have 
come up, thus far, there is an understandable skepticism about 
what we have received in return for the resources that we have 
invested. And that reflects the fact that Americans are 
pragmatists. If we invest something, we want to know what we 
get in return and how are we doing in this.
    But in this particular case, that skepticism on the part of 
Congress, I think, is entirely appropriate because in the 
immediate wake of 9/11 the issue was spare no expense. Do 
whatever we have to do to prevent another 9/11.
    It is not which button we will press. We will press every 
single button. One of them has to work. And fortunately, it 
worked, a combination of what we did and luck.
    But now, looking for the long haul, we have become more 
sensitive to both how much we do and how we go about doing 
that. Part of that is imposed by the terrible costs that we 
have incurred thus far.
    But here, to underscore the ambassador's remarks, in that 
if you look at the more recent activities, where we have worked 
together with the Kurds or other Arabs in Syria, or we have 
done more things with special forces, or we have done more 
things with local partners, military and nonmilitary, the 
resources there have been a fraction of the terrible price that 
we have paid, if you look back at the previous 15 years, 
especially the first 10 years after 9/11.
    Mrs. Davis. Thank you.
    Could I let--Colonel could you just respond quickly then?
    Colonel Price. Yes, absolutely. I agree with most of what 
has been said. I mean, in my opinion, the three places to 
improve. I agree, intel is one place where you will always get 
a great return on your investment. The two places--one cost 
efficient one where I think we can make a lot of room is in the 
informational domain; again, I think that public-private 
partnerships is the way forward there.
    The last one is not very cost efficient, but it has to do 
with improving governance programs, diplomatic and economic 
programs to improve governance in the places that are fostering 
this violence.
    Mrs. Davis. Okay. Thank you.
    Thank you Mr. Chairman.
    The Chairman. Thank you.
    Mr. Wilson.
    Mr. Wilson. Thank you Mr. Chairman. Thank each of you for 
being here. And Ambassador, in particular I want to thank you 
for pointing out that the people of the Middle East really do 
want to live in the 21st century.
    Having had the opportunity to visit from Beirut to Amman to 
Dubai, I explained to my constituents at home that many of 
these countries, cities, look like Hilton Head on steroids. And 
so they really want to really be part of the 21st century.
    And then it is personal to me. All four of my sons have 
served there. My oldest son was field artillery in Iraq. My 
second son was a doctor serving in Baghdad. My third son served 
Bright Star Signal in Egypt, and my fourth guy was an engineer 
in Afghanistan serving with the local military. And so I am 
just so hopeful that we can back them up.
    But sadly, the legacy of President Obama is a failure by 
not taking ISIS seriously, by declaring a red line that was not 
serious, by not having a status of forces agreement. To me, he 
has not learned the lesson of 9/11, which was where there is a 
safe haven, such as Afghanistan, that the American families are 
at risk.
    And we see it even today. I was in New York on Monday and 
thank goodness that there were police officers, there were law 
enforcement, there were first responders, there were National 
Guard, every 5 feet in a city that shouldn't be under siege, 
but they are. And I want to make every effort that we can to 
defeat terrorists from overseas.
    And with that in mind, Colonel Price, you have referenced 
this, and that is that we need to counteract the social media 
of the Islamic terrorists. And how can we do this best, and 
what is the role of the Department of Defense?
    Colonel Price. Sir, so obviously I am not here speaking on 
behalf of the Department of Defense, but I can offer some of 
the academic perspectives in terms of what we can do in a 
social media realm. And I think this goes back to the public-
private partnerships that we can foster in order to do more in 
this space.
    What is interesting is that, as I mentioned before, the 
jihadists are very adept at skirting around the different ways 
to both communicate, but to do it in a way that is not always 
illegal. And so I think this will ultimately come down to a 
policy question that I am not really equipped to speak on.
    Mr. Wilson. And for each of you, and it could relate to how 
we address this, and that is, are there legislative authorities 
that are needed to address the specific aspects of countering 
the cyber threats to our country?
    Mr. Jenkins. I don't know it is a matter of legislative 
authority. I think those authorities are there, and I think we 
are making some progress. A couple of areas that have already 
been mentioned that I think we are not fully exploiting, one 
is, Colonel Price is absolutely correct.
    There is an extraordinary trove of documents produced by Al 
Qaeda, produced by ISIL, which I don't know why they are 
classified. I don't see that it is our responsibility to 
maintain our enemies'--protect their secrets. These would be 
better served in the public domain, because I think they would 
be really instructive. I would make those available.
    And I think another thing that is an underutilized resource 
is we have some of these people coming back from this 
experience. We do have--they can be utilized more. I know our 
tendency is, and it is understandable, this is a nation of law, 
to say, well, we will lock them up and put them away and forget 
about them.
    That is fine, but that is an underutilized resource. And it 
doesn't make any difference whether we think they are sincere 
or not, but certainly they, not we, represent the most 
effective voices against jihad, against radicalization.
    So among these many hundreds who we have in Europe and 
here, we could utilize them a lot more in terms of their own 
propaganda against their own side.
    Mr. Wilson. And we look forward to your input.
    And, Ambassador, I want to thank you also. You cited 
success stories. People need to know. I have just returned from 
a wedding in Bogota, Colombia.
    The success of Plan Colombia, just it would have been 
inconceivable, the thought that anybody would have gone to a 
wedding and feel like they would have been safe. But due to the 
success of the American military, now that dynamic country of 
40 million people is free and dynamic. So thank you for your 
service.
    Ambassador Jeffrey. Thank you. We diplomats will take some 
credit for Colombia, too, Congressman.
    The Chairman. Mr. O'Rourke.
    Mr. O'Rourke. Thank you, Mr. Chairman. I wanted to comment 
on some of the lessons learned that have been described by the 
panel, all of which are very helpful, some of which, especially 
Ambassador Jeffrey, you talked about our failure to react in a 
timely fashion.
    But I also want to talk about some of those things that we 
have done in the past that have precipitated some of the 
problems that we see today. And perhaps looking forward, some 
of the actions that we can take that could potentially prevent 
them that may not be military in nature.
    And I really appreciate my colleague, Mr. Jones, pointing 
out that 2003, the invasion of Iraq set off a chain of 
consequences, some of them factoring into what we are talking 
about today. And then the decision to remove Muammar Gaddafi in 
Libya had some very negative consequences, which we are still 
dealing with today.
    There is an interesting article in addition to the one that 
Mr. Jenkins contributed to in the Atlantic, published in the 
New York Times, written by Scott Anderson, ``How the Arab World 
Came Apart.''
    And one of the things that he notes is that in these areas 
where we are concerned about ISIS in Syria, in Iraq, and in 
Libya, they all had something in common, which is that, you 
know, 100 years ago they were creations of the West. They 
weren't inherently--you know, there was no real Syria. There 
was no real Libya. There was no real Iraq.
    And these artificial political constructions could really 
only be kept together by a strongman. And typically the West 
would put a strongman of the minority tribe or sect in power. 
And it has produced some of the problems that we see today.
    This lack of coherence, this lack of national identity, 
this problem that despite the fact that we spent $60 billion 
training and equipping the Iraqi Army, there was no real Iraqi 
Army and they melted in the face of a far more insignificant 
force in ISIS.
    And so my question is, to expand on the excellent question 
from the chairman, let us look 15 years back, let us look 15 
years forward. Could you look 100 years back and 100 years 
forward with me? Is there something we could do to facilitate a 
different political construction in these three countries?
    You know, the shorthand term for this is partition, but 
that acknowledges that these are not real countries the way 
that we think of countries and acknowledges the sectarian 
interests, the tribal interests, the familial interests that 
trump national identity. It may be the least bad option of a 
number of bad options before us. Convince me why it is not 
worth exploring and pursuing.
    Mr. Jenkins. I think the reality is, as I mentioned in my 
testimony, that the partitions that we currently see in Syria 
and Iraq are going to persist. I know diplomats have to be 
optimists. And for a variety of reasons we have to remain 
committed, at least in theory, to the territorial integrity of 
Syria and Iraq. The reality on the ground is quite different.
    Without abandoning the notion that we are in the business 
of being the new Sykes-Picot people who will now draw new lines 
in the sand, I do think that it might alter our approach to 
recognize that reality and instead of thinking in terms of 
broad peace agreements that will encompass the entire nation or 
governments that will be created that will be able to command 
the loyalty of all citizens within those territories, that we 
accept the reality and perhaps go for more modest local 
accommodations.
    That is, instead of one grand peace treaty, a series of 
small steps that are aimed only at limiting--lowering the level 
of violence and allowing some commerce to take place and life 
to come back to something approaching normality, as opposed to 
going for these three-point diplomatic shots that we sometimes 
try for.
    Ambassador Jeffrey. If I could very quickly, Congressman, I 
agree with everything Mr. Jenkins said, but there are two 
problems with this that I think we need to consider.
    First of all, other than East Asia, I know of no part of 
the world where you have got countries with each its own ethnic 
religious group by and large, and a little bit Europe.
    What you described in the Middle East is absolutely 
correct, but Sub-Saharan Africa saw the same thing without the 
same level of huge turmoil and generator of terrorism that we 
see in the Middle East.
    And Latin America, again, that was basically one big 
Spanish set of colonies that then broke apart with very similar 
ethnic and religious backgrounds, but managed to survive as a 
set of independent countries. So that is the first thing. It 
may be that there is a special problem in the Middle East that 
we don't see elsewhere, and fixing borders won't fix that 
special problem.
    The second thing is, as I mentioned in my opening remarks, 
supporting the international order, national sovereignty, 
national unity should be our default position because it is 
what we represent. We can make exceptions to that, as Mr. 
Jenkins said, and as I was involved in in the Balkans where we 
helped break up countries.
    But one requirement that worked in the Balkans and that 
hasn't worked in the Middle East is if you are going to do any 
fiddling inside a country, everybody in that region has to be 
with you. Because if only one is against you, Syria and Iran 
with Iraq, Pakistan with Afghanistan, we know all too well in 
this room what happens. Thank you.
    The Chairman. Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman. Lieutenant Colonel 
Price, I wanted to follow up on your written testimony where 
you talked about what the United States did after major 
operations in Iraq ceased and our presence there and lack of 
presence there and what led to the current security situation.
    We find ourselves now 5 years after that significantly 
reduced military presence in Iraq. We see what is happening 
now. I expect in the months to come there will be another major 
offensive, perhaps to retake Mosul.
    The question then becomes what should the U.S. role be to 
ensure security in Iraq after Mosul is, hopefully, regained 
from ISIL?
    Colonel Price. Yes, sir. So in my testimony I did discuss 
that a little bit. Unfortunately, this problem is not unique to 
the United States, as Ambassador Jeffrey pointed out earlier. 
Doing this type of work and finding leverage in other countries 
to govern the way you would like to govern is extremely 
difficult.
    One thing I will say, though, is that I believe that if you 
take a look at most of the debates surrounding our campaign 
against the Islamic State today, I would argue that most of 
those debates are centered around the ways and means of 
attacking them, discussions about boots on the ground and troop 
levels, rules of engagement, airstrikes, building partner 
capacity, and so forth. I think the real debates need to focus 
around what happens after.
    Mr. Wittman. Yes.
    Colonel Price. I think the Islamic State, the last thing I 
will say is that they have created an interesting scenario 
because they have created a lot of enemies in the region. And 
so I believe that we are going to be successful in retaking 
territory. My concern is what happens after, and I would like 
to see more national debate on that.
    Mr. Wittman. Let me ask this. Having visited there--I went 
up to Kurdistan, visited with the Kurds, visited with the 
government in Baghdad--and I use the term ``government'' 
loosely, and seeing what they are dealing with with Sunnis and 
Shias in that region versus the Kurds up north, the 
disagreements the Kurds have had with this Baghdad government.
    Is the future one that is likely to hold a country that is 
not like we saw Iraq previously, with it having those three 
areas united as one country, would it be potentially divided 
where you would have a Kurdistan, you would have Shia and Sunni 
regions that would be regionalized governments, perhaps 
operating under some centralized government in Baghdad?
    Give me your perspective about how governance would occur 
after you regain security. Obviously, security has to happen 
first, but give me your idea about what governance would--what 
you think it would look like after that?
    Colonel Price. Yes, sir. There is no really easy answer to 
that question, and I would honestly be interested in hearing 
what Ambassador Jeffrey would have to say on this topic.
    I think the only thing that I will add, and again, this is 
in my own personal opinion, the key question, whether you are 
talking about post-hostilities in Iraq or Syria, the key 
fundamental governance question is are these states able to 
provide an alternative and credible form of government that is 
going to be preferable to living the jihadist lifestyle?
    Mr. Wittman. Yes.
    Colonel Price. A very difficult task. I will cede my time 
to my colleague.
    Mr. Wittman. Ambassador.
    Ambassador Jeffrey. Very quickly, to build on Colonel 
Price's comments, first of all, government in parentheses, you 
are absolutely right.
    Mr. Wittman. Yeah.
    Ambassador Jeffrey. But that is okay.
    Mr. Wittman. Yeah.
    Ambassador Jeffrey. That is how most of East Asia 40 years 
ago looked, corruption, quasi-dictatorial regimes, army 
generals coming in in Korea. Taiwan was a problem. Thailand is 
still a problem. But we somehow deal with them.
    The answer to Iraq is it was functioning pretty well in the 
period of time from the end of the surge, 2009 to roughly 2013. 
Many factors led to the decline of the state, including a lack 
of attention by us, and increasing sectarian thought and 
actions, particularly by the largely Shia Arab government 
against the Sunni Arabs. The Kurds and the Shias kind of worked 
things out in their own unique way.
    But I would say that you could go back to that. You will 
have all of the problems that you hear when you are out there, 
but you have a lot of problems in Egypt. You have a lot of 
problems elsewhere in the region. It can work. I have seen it 
work.
    The most important thing, though, the delta, is we have to 
stay in there diplomatically and militarily. That means dealing 
with Iran, because job one for Iran, as soon as the ISIS battle 
is over, is to get our 5,000 people out of there.
    We have to find a way to persuade everyone in Iraq that 
that is a bad idea, and to some degree, to persuade Iran that 
it is a bad idea in the long run for Iran, too. That is a much 
bigger problem. I touched on it in my testimony. But it is 
going to haunt us as long as we are trying to stabilize the 
region.
    Mr. Wittman. Very good.
    Thank you, Mr. Chairman. I yield back.
    The Chairman. Thank you.
    Ms. Gabbard.
    Ms. Gabbard. Thank you, Mr. Chairman. Just briefly, a 
follow-up to Ambassador Jeffrey on that point. Do you think 
that the very closely and intertwined relationship between the 
Shia government in Baghdad and Iran can be so easily supplanted 
by our 5,000 troops on the ground in our engagement there?
    Ambassador Jeffrey. Absolutely not, Congresswoman. We have 
to live with the fact that Iran will have a great deal of 
influence in Iraq, not just with the largely Shia government 
and the Shia in the south, but frankly, with many of the Kurds 
in the north. I have seen that as well.
    The question is do we want to compete with Iran or turn the 
place over to them? One of the problems with letting the place 
split into its three components is the other two components 
tend to anchor the Shia south in a sort of independent status.
    If Iran really were in charge, it would have long since 
picked up the phone and said why are you exporting up to 4 
million barrels of oil a day? This is killing us on oil 
exports.
    And believe me, those 2 million additional barrels of oil 
that Iran--Iraq is exporting now compared to a decade ago, 
thanks largely to us and international oil companies, that is 
one of the reasons oil prices are so low. That is good for your 
American consumers, but it is not good for Iran.
    Iran doesn't do that because it knows the Iraqis would say 
no. You break that country up, the Shia south is going to have 
to gravitate into Iran's orbit in a way much more than today. 
Total oil reserves in Iran and the Shia south of Iraq are 
greater than Saudi Arabia's.
    That is something worth combating, and I think we can stay 
in there, and I think we can push back. But it takes a lot of 
effort, and it is going to take, again, dealing directly with 
Iran.
    Ms. Gabbard. That is a big conversation that we can get 
into about the three-state possibility for Iraq and the 
consequence of, as Mr. Jenkins mentioned, the reality on the 
ground, which is that this partition, in essence, has already 
taken place.
    And the vacuum that has been created by the oppression of 
the Sunni tribes and others by the Shia government has allowed 
groups like ISIS to, in fact, come in, which leads me to my 
question. Much of the testimony today and much of the talk in 
the media, much of the conversation from the administration as 
well as from military leaders on the ground in places like 
Syria, is their mission is to defeat ISIS, period.
    And when we ask questions about what about Al Qaeda? What 
about the group formerly known as al-Nusra? What about these 
other jihadist groups? Why are we not targeting them, or are we 
targeting them? And the answers are really insufficient and 
really speak to the fact that we are not.
    As a result, groups like al-Nusra, now JFS [Jabhat Fateh 
Al-Sham], have really integrated themselves deeply within 
Syrian society right under our noses to the point where if the 
administration is successful in removing Assad, the likelihood 
is that these groups, a.k.a. Al Qaeda, would take over, 
creating a greater threat, not only to the region but to the 
world.
    Can you speak to the issue of why things have been so 
completely focused on this group called ISIS rather than 
recognizing the fact that Al Qaeda still has leading terror 
groups all around the world? And why more is not being done, 
therefore, then to take the next step to address defeating the 
ideology?
    Mr. Jenkins. I am not sure that we are ignoring Al Qaeda 
around the world. I mean, there are continuing efforts and 
efforts that have achieved the measure of success in reducing 
the capacity of al-Shabaab in Somalia, an Al Qaeda affiliate.
    There is an ongoing campaign, which the United States is 
supporting, to go after Al Qaeda in the Arabian Peninsula, in 
Yemen. And at least with the air campaign some of that has been 
also directed against Al Qaeda's affiliate in Syria.
    But you do underscore an issue here, and that is that what 
used to be the, you know, the performing actor formerly known 
as Jabhat al-Nusra has, in fact, become a part of, embedded 
itself deeply in this broader coalition of rebel forces against 
them.
    And it is extremely difficult and will become more so for 
us to precisely target that component without weakening what is 
essentially still a U.S.-backed broader rebel effort against 
Assad.
    All of this comes about because of the fundamental problem. 
And that is, for the Sunni population in Syria, the only 
avatars they have, the only military defenders they have right 
now are the Islamic State and this coalition of rebel forces 
dominated by jihadists.
    There is not another force in the area that can protect 
that Sunni population. So we have the dilemma that part of the 
people we are supporting includes a component of the very 
people we are against.
    Ms. Gabbard. Precisely.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Gibson.
    Mr. Gibson. Thanks, Mr. Chairman. Appreciate the panelists. 
We heard from you earlier your testimony about how important 
the competition of ideas is.
    And also in some of your testimony you talked about 
declassification of information. And it caused me to reflect on 
a very significant experience that I had during the surge. 
Ambassador Jeffrey, you may remember this from Iraq.
    But in the early summer, General McChrystal and the Joint 
Special Operations Command had captured a high-value target, 
and in his debriefing, essentially exposed the fraudulent 
nature of Al Qaeda in Iraq.
    At that point, they were really trying to say how this was 
homegrown and there were all kinds of Iraqis that were involved 
in this. And this individual we had captured, he basically said 
no. It is all penetrated. It is all foreign. They have one 
token that is in the lead.
    And I bring it up because General McChrystal, I think, made 
a very courageous and smart decision. He declassified all that 
information the first week of July and--I think it was about 
the first week of July--and that helped us so much.
    I mean, as the operations officer for everything north of 
Baghdad, this helped us in Mosul and Khilafah and Baqubah and 
Tikrit because we were able to have engagements and say look. 
Look what has happened. This was right on the cusp of the Sunni 
Awakening moving from the west over to Diyala Province. And say 
look, these guys are complete frauds.
    And, you know, it really struck me that, you know, he was--
which is not surprising for General McChrystal, but he was 
really taking on some risk in declassifying this information 
and using it in a way that we were targeting with it.
    And so my question is, you know, looking across now and 
elevating and thinking about this as a national endeavor, you 
know, what recommendations do you have as far as laws or 
guidance on enhancing our agility to declassify to win this 
competition of ideas?
    And in your remarks, any specific recommendations you would 
have for either the President and the executive branch or for 
us from the Congress in terms of congressional delegation 
trips, messaging, hearings that will help on this score.
    Colonel Price. Sir, the case that you just mentioned was 
one that we highlight in the Combating Terrorism Center all of 
the time because General McChrystal actually gave those 
documents to the CTC. They were referred to as the Sinjar 
Documents. And they disclosed, like you accurately mentioned, 
the foreign fighter threat that was going. It was not a 
homegrown threat.
    In fact, when we were able to do that analysis on those 
documents, we were able to determine that, when you take a look 
at the per capita donors from specific countries, I think 
everyone had assumed that Saudi Arabia was going to be the 
largest donor at that time. And they did--they were number one 
on the list.
    But another state that was number two was Libya. And when 
you--we were able to parse out that data down to the actual 
towns where these individuals were coming from. Again, as you 
mentioned, this is 2007. The two highest per capita were Derna 
and Benghazi. And this was well before Benghazi was a household 
name.
    And so when you talk about what systems are available for 
us to do this, there is a joint collaborative program between 
the Combating Terrorism Center along with U.S. Special 
Operations Command called the Harmony Program.
    And that was the vehicle by which General McChrystal and 
others used in order to declassify those. That program is still 
in function today, and we look forward to getting more 
declassified documents.
    Mr. Gibson. How about other thoughts in terms of how we can 
get, you know, more agile and more effective in this domain, 
this competition of ideas? Because, you know, certainly there 
is a continuum between speed and effectiveness and protection 
of sources, and I get all that. But are there any sort of 
lessons that you can draw out of this that we could really hone 
in on and be more effective with the whole-of-government 
approach?
    Ambassador Jeffrey. In my experience, which includes trying 
to supervise parts of that underlying--trying when I was in the 
White House, it is very complicated because there are always 
two reasons why you classify information.
    One is the actual damage that that information might do if 
it came out into the public sector. But as Colonel Price and 
you just indicated, Congressman, in many cases it is 
advantageous for us to have that information out there.
    The second reason, and that is where you get to 
bureaucracy, your role, the role of the executive, is sources 
and methods. That is, it is an innocuous piece of information. 
It would do good, not bad if the American public could read it, 
if people abroad could read it, if you could have access to it 
freely.
    But people are afraid because, by some algorithm of steps 
and actions and mathematical formulas, that could somehow 
reveal how we gather information. I am less worried about that, 
I think, than many people are.
    But this is something that you have to discuss with the 
intelligence committees and the intelligence community because 
they are very ferocious on this, sometimes correctly, sometimes 
not. But if you want to be fast and agile, you need to look 
into that specifically.
    The Chairman. I think we should.
    Mr. Nugent.
    Mr. Nugent. Thank you, Mr. Chairman. And you don't paint a 
pretty picture as to how this is going to be resolved in the 
future. Only because, I think, the dynamics in the Middle East 
are so diverse. We have talked about, you know, in Colombia, in 
other states, we didn't have the two religious organizations 
that are the largest in that area, the Shia and the Sunnis, at 
odds with each other.
    So how do we ever resolve that issue, which I think, you 
know, is the underlying issue that percolates up through all of 
this, whether it is, you know, tribal? But it really goes back 
to their, you know, you got Iran who the majority is Shia, 
right? And, you know, the rest of the countries in that area, 
the majority is Sunni.
    So how do we resolve that issue? Is there a resolve? And 
can we play a part in that? And Mr. Ambassador, you have had 
the ability to deal with those over the years. What is your 
take?
    Ambassador Jeffrey. I have had about 30 years, counting 
Turkey, in the region and working on the region, and I was just 
out there and talked to the leaders of Israel, Saudi Arabia, 
and Turkey over the past month. I like the area. It is 
fascinating, and it doesn't have to be what we see right now.
    And there are times when it hasn't. For example, the Shia-
Sunni split and the conflicts that emerged from them, which I 
was so worried about I put considerable time into it in my 
written testimony as an accelerant for terrorism in this 
region.
    That is something that while it has been latent before, 
these people, Sunni and Shia Arabs and other ethnic groups with 
that split, have lived together in relative peace for most of 
the history of the Middle East.
    It is something that can go back together, just like 
Orthodox and Muslims lived in peace in Bosnia and other places 
in the Balkans for centuries. And then bang, in the 1990s, what 
happened? A breakdown in order, an unwillingness of the 
international community to engage, and the evil forces that are 
always latent, bubble up and become omnipresent. We have that 
with a vengeance right now in the region.
    But again, while we can't go in and fix it per se, the 
region itself can fix it if given enough time and given enough 
stability. Our job from the outside, and it is not something we 
can do alone, we need to do it with our European friends and 
our allies and partners in the region, is to dampen down the 
exploitation of this violence and insecurity by forces, 
beginning with terrorist forces, Iran, and at times even our 
own friends who get carried away in responding to these 
threats.
    But that takes a very present United States. Not with whole 
armies, not with hundreds of billions of dollars a year in 
expenditures, but the kind of presence that over most of the 
period since the 1970s we have been able to do in the region 
and with relative success. Over the long term, I am optimistic, 
but I realize it may be a hard sell today.
    Mr. Nugent. Well, I mean, we tend to want to force our view 
of government on other governments. And I think, you know, we 
saw that with Saddam Hussein, with, I mean, all the dictators 
out there. And we want to impose what we think is the proper 
form of government.
    And not every country or people are ready for democracy as 
we see it for a number of reasons. And Iran, obviously, you 
have touched on it, Iran is a huge player.
    And I agree with your testimony that we can't just leave a 
void there and allow Iran to fill that. If we abandon the 
Middle East, what are we going to get? And I think we have seen 
part of it.
    And Lieutenant Colonel Price, I am very interested, having 
two sons that went to West Point, on your take in regards to 
what are we trying to impart upon our future leaders and our 
leaders within the military as to how we go about this?
    Because we do have the ability militarily to do certain 
things, but I don't know that--and we have talked about we 
don't have the will in the United States, nor the money to 
continue. What is your take?
    Colonel Price. Yes, so very briefly, sir, one of the 
reasons why the organization that I lead and stood up was for 
that very reason. When I was a cadet, we did not have any type 
of formal education when it came to these types of topics, 
whether it be terrorism, counterterrorism, counterinsurgency. 
These are complex issues that our young American service men 
and women are facing.
    Mr. Nugent. And I--you know, my son was a plebe when the 
Twin Towers went down, or he just finished his plebe year. So 
you are right. We didn't have a whole lot of experience in 
that. But I am sorry to interrupt.
    Colonel Price. Yes, sir. So part of this is learning about 
these topics in a more academically rigorous session. The other 
things that we have done is we have enhanced the academy's 
overseas programs to get more cultural education to our cadets.
    But ultimately, at the end of the day, and this is not 
specific to the U.S. Military Academy or others, but it is 
teaching our young military leaders how to think and not what 
to think. That is all.
    Mr. Nugent. I appreciate it.
    I yield back, Mr. Chairman. Thank you.
    The Chairman. Thank you.
    Mr. Bridenstine.
    Mr. Bridenstine. Thank you, Mr. Chair. Ambassador Jeffrey, 
you were our ambassador during the withdrawal from Iraq. You 
were our ambassador to Iraq. I wasn't in Congress at the time, 
but I was in the military.
    And what we were being told at the time was that there was 
no status of forces agreement ratified by the Iraqi Parliament 
and therefore we had to pull out. That was the talking point 
that we heard over and over again.
    Currently, we have 5,000 troops in Iraq. Did the parliament 
ratify a status of forces agreement, and if not, how do we have 
5,000 troops there now?
    Ambassador Jeffrey. And that is a good question, 
Congressman. Give me a second to track this back, because I was 
involved in this first in the White House in the Bush 
administration, and then on the field in the Obama 
administration.
    As part of the--our authorities in Iraq up until 2008 were 
based on a U.N. Security Council resolution. The Iraqi 
government in 2008 said this has got to end.
    So President Bush then went in and got a status of forces 
agreement that gave us immunities for our troops, but the cost 
of that was--to get it through the Iraqi Parliament, and 
everybody agreed that it had to go through the Iraqi Parliament 
to be legally binding, was we had to put a limit on how long we 
would stay.
    So that limit was the end of 2011. The Obama administration 
came in, and then after General Austin and I----
    Mr. Bridenstine. So in 2008, it did go through what was----
    Ambassador Jeffrey. It did go through the parliament. That 
is right, sir.
    Mr. Bridenstine. It did. Okay.
    Ambassador Jeffrey. Then, in 2010, General Austin and I 
came to Iraq. And soon we said, hey, we don't want to do a 
withdrawal in 18 months. Let us recommend that we keep troops 
on.
    We went back and forth with the administration. President 
Obama brought us in and said, okay, we will try to negotiate a 
new status of forces agreement.
    With one exception, all of his advisers and all of them at 
the top two tiers, said, yeah, we have to get one through 
parliament because the last one went through parliament and, in 
a democratic system, it really won't have legal--because what 
you are doing with a status of forces agreement is saying Jim--
or you as a solider, or you as a soldier, Congresswoman, are 
exempt from the laws of a country.
    Mr. Bridenstine. Right.
    Ambassador Jeffrey. It is not something----
    Mr. Bridenstine. Critically important.
    Ambassador Jeffrey. Yeah. It is critically important, but 
it is something that it takes either diplomatic status, which 
is a treaty, or it takes something that has to be legally 
binding in a state like Iraq under that constitution, and that 
is the parliament.
    So our position was we need a status of forces agreement. 
In the end, the Iraqis said, okay. We can put up with troops 
in-country, but we don't want to give you a status of forces 
agreement that will go through the parliament because, hey, the 
Russians didn't need this. Why do you need it?
    And Prime Minister Maliki said, ``I will just sign a 
document.'' Everybody, with one exception, concluded that that 
wasn't acceptable, so we went without the troops at the end of 
2011.
    Then in 2014, under very different emergency conditions, 
the President decided that he could live with, essentially--and 
I haven't seen the document, but I know it exists--an executive 
agreement that our troops will have, to the extent possible, 
immunities. I don't know what the language.
    It is pretty threadbare. The difference is when you have an 
emergency where foreign horrific forces gobble up a third of 
your country and kill tens of thousands of your citizens, 
probably we can send forces in in an emergency basis without 
those same legal protections, because the country dramatically 
needs us.
    In 2011, when the troops left, Congressman, there was 
almost no fighting in-country. People were--Iraqis were not 
quite sure why we wanted to stay on. That was my concern, that 
we would be harassed by, for example, Sadrist police, extremist 
judges, and other things, and therefore, we needed that 
protection. Now----
    Mr. Bridenstine. Well, that is more clarity than I have had 
on that the entire time I have been here. So thank you. That is 
a great answer.
    Ambassador Jeffrey. Thank you.
    Mr. Bridenstine. I want--and I have got just maybe a minute 
left. Colonel Price, how important is human intelligence to 
winning this fight?
    Colonel Price. I think it is absolutely critical, and I 
think that it has led to a lot of our counterterrorism 
successes since 2001.
    Mr. Bridenstine. Real quick, do you know offhand how many 
prisoners, how many ISIS prisoners we have captured?
    Colonel Price. No, sir. I wouldn't be able to answer that.
    Mr. Bridenstine. A couple of months ago, I asked the 
Secretary of Defense and the Chairman of the Joint Chiefs, and 
they gave me one. Do you know if we have captured any more than 
that since then?
    Colonel Price. I don't know, sir.
    Mr. Bridenstine. Is that important to being able to get 
human intelligence?
    Colonel Price. Sir, is your question is that taking 
prisoners is important to----
    Mr. Bridenstine. That is my question.
    Colonel Price [continuing]. Gaining intelligence?
    Mr. Bridenstine. Yes.
    Colonel Price. Yes, I think that you can glean information 
from captured terrorists. Yes, sir.
    Mr. Bridenstine. Okay. We have had a conversation about 
hard power and soft power. You talked about public-private 
partnerships. One thing I would like to get on record. Are you 
familiar with the Overseas Private Investment Corporation?
    Colonel Price. No, sir.
    Mr. Bridenstine. Anyone else on the panel familiar with it? 
Can you guys talk about whether or not that is important, and 
if it is something we as Members of Congress should be involved 
in making sure continues?
    Ambassador Jeffrey. It is really good bang for the buck. I 
have dealt with it. It has been a long time. I cannot talk 
specifics, but it is one of the things we sort of smile when we 
hear about our government doing abroad as opposed to other 
things that we are a little skeptical about, that are bigger, 
clumsier, and don't get money out.
    Mr. Bridenstine. Okay.
    Mr. Jenkins.
    Mr. Jenkins. Absolutely. It is extremely useful in 
providing the assurance that we need. Not to put aside 
insurance, but the assurance that investors need and traders 
need to make this work. I would agree with the ambassador. It 
is a big bang for the buck.
    Mr. Bridenstine. That is good to know.
    I yield back, Mr. Chairman.
    The Chairman. Mr. Byrne.
    Mr. Byrne. Thank you, Mr. Chairman. Thank you, gentlemen. I 
think I am the end here, so that is the good news for you.
    I want to go to the topic of our allies in the Middle East. 
I think if not explicit, implicit in all of your testimony is 
we can't do this alone. Now, I am concerned about the 
relationship that we presently have with our allies.
    Some of us have been over there and talked to our allies. 
We certainly read things that they have been saying. It seems 
that they are worried that we have gotten too close to Iran at 
their expense.
    And so I would like for you to speak to this notion that we 
have to pick who we are going to be with. In other words, is it 
the situation where we can have a relationship with Iran and 
cause problems thereby with our other allies, our Gulf allies, 
our Saudi Arabia allies, our Jordanian, Egyptian allies?
    Or can you thread that needle where, yeah, you can have 
some sort of a relationship with Iran and still have that very 
strong, important, positive relationship with our allies?
    There are some of us that are worried that we are leaving 
the girl we brought to the dance at the dance and going off 
dancing with another girl, and that is not a good thing. Or 
perhaps a better way to say that, we are in a fight and we have 
left our friends in the fight and gone to our adversary in the 
fight.
    I might also add that I would like, if you can, talk a 
little bit there also about how we are presently treating the 
president of Egypt, Mr. el-Sisi, who has in many ways been very 
strong in advocating our interests in that region. So if you 
could speak to our relationships with our allies and whether it 
is in the right place or whether it needs to change?
    Ambassador Jeffrey. If I could start, as I said, I have 
just been in the region, and I have talked to Prime Minister 
Netanyahu, the head of the Israeli opposition, to the king of 
Saudi Arabia, the crown prince, deputy crown prince, and to 
President Erdogan.
    And everybody is echoing exactly what you are saying, 
Congressman, that they want more American presence in the 
region, military, diplomatic, political, obviously economic, 
but they focus on diplomatic. And they want a stronger position 
against Iran.
    Now I mentioned earlier, both Iran as a source of basically 
pushing the area more into terror, but also as someone in Iraq 
and elsewhere we have to deal with. And we do have to deal with 
it. We had to deal with it one or another way on the nuclear 
account. We have to deal with it in its presence in the region.
    But here is where I draw the line. There are countries, 
however flawed, that support the international status quo and 
want us in the region. Egypt is a good example. Turkey is 
another, however difficult.
    Secondly, there are countries that while we may have to 
deal with them on things, ultimately don't want us there and 
want a different Middle East. That is ISIS. That is Iran. And 
therefore how we deal with them has to be different.
    We had relations with the Soviet Union for 40 years. We did 
agreement after agreement with them. But we never lost sight of 
the fact they and we have totally different visions of the 
world.
    We and Iran have totally different visions of how the 
Middle East should be shaped up, and lest we forget that, we 
open the door to exactly the kind of problem you have 
described.
    Mr. Jenkins. Let me underscore that. I think there was a 
sense of perhaps ill-founded euphoria when we signed the deal 
with Iran that this would be the beginning of rapprochement and 
good relations.
    This was a deal. And the notion of some type of 
rapprochement, and ultimately some even spoke about strategic 
partnership in the region, I think is something that may be 
decades down the road, if ever. It is not clear that the 
Iranians are interested in that at all.
    I think, in terms of dealing with our traditional allies, 
as flawed as they are, in the region, I think we have caused 
them consternation, not simply because of the arrangement with 
Iran, but because of some of our inconstant behavior as we went 
through this turbulent Arab Spring, and that caused them to----
    Mr. Byrne. The red line, et cetera.
    Mr. Jenkins. Various things, a whole list of things so that 
the notion was, their concern was if they face a threat, an 
overt, obvious threat, we would probably come and assist them. 
A more insidious kind of a threat, we would probably give them 
a lecture on human rights and democracy and so on. And so that 
caused them to be greatly concerned.
    Now, I am not saying we ought not to be committed to those 
things of human rights, of democracy, and so on. But we also 
have to accept that these are not values that we can 
automatically export and impose on others or demand as 
preconditions for any type of relationship.
    And therefore, I think that we have not been as successful 
as we could be in exploiting some of the initiatives that have 
come out of the local partners that we might do, including some 
of the Gulf countries.
    Mr. Byrne. Thank you. My time is up, but I hate not to let 
Colonel Price respond to that, Mr. Chairman.
    Colonel, could you respond to that?
    Colonel Price. Sir, I wouldn't have anything to add than 
what the other two panelists have already said. Thank you, 
though.
    The Chairman. Ambassador Jeffrey, you don't have to comment 
on this if you don't have an opinion, but your conversation 
with Mr. Bridenstine on the Iraq status of forces agreement 
leads me to think about an issue that we have before us now. 
And that is the bill that allows victims of terrorism to sue in 
court other nations, conduct discovery, and so forth.
    The United States has more people in more countries around 
the world than anybody else. And one of the arguments that 
leads to concerns about that is that when you start eroding 
sovereign immunity, then that is a slippery slope that puts our 
people in greater danger.
    Do you have an opinion about this? And again, I don't 
want--this is kind of out of the blue, but if you want to, 
fine.
    Ambassador Jeffrey. I have a very strong opinion, Mr. 
Chairman. Normally, I am 90 percent, 10 percent, 70 percent, 30 
percent. There are a few issues I am 100 percent on. This is a 
really big mistake. This will open the door, potentially, to 
legal action against Americans by, you know, criminal courts in 
other--criminal in the sense of corrupt--in criminal courts in 
other countries.
    It will risk the diplomatic immunity that people like me 
needed to work in very difficult countries, communist Bulgaria, 
for example, in the 1980s. I have seen up close what they were 
trying to do to us and how we wrapped ourselves in that 
immunity.
    This I cannot--totally apart from the importance of Saudi 
Arabia in the fight against terror and the competition with 
Iran, against any country this would be a mistake. It opens the 
door to extraordinary threats to Americans of a legal nature 
around the world. Thank you for asking me.
    The Chairman. Well, no, I appreciate it. Those are some of 
my concerns as well.
    One thing we hadn't really talked about today and in my 
memory was the, you know, dominant shadow overhanging 9/11, and 
that was what if terrorists get their hands on weapons of mass 
destruction?
    We have seen ISIS use chemical weapons. It has been made 
public that Al Qaeda, among others, have worked on biological 
sorts of weapons. Do any of you have any comments about that 
prospect, how that might change the way we view terrorism, et 
cetera?
    Mr. Jenkins. I think that any use by terrorists of 
chemical, biological, radiological, let alone nuclear weapons, 
would have a profound effect on public psychology.
    I hesitate to call them weapons of mass destruction because 
I think there is a range there. And when we look at what they 
were experimenting or what capacities have, the capacity, while 
chemical weapons may be more accessible, the capacity would be 
quite limited.
    While radiological is one that is frequently mentioned, the 
so-called dirty bomb, in looking at that from an operational 
standpoint, the bomb part, that is the explosion, would be the 
source of casualties far more than the radioactive component, 
which is likely to be very small quantities of radioactive 
material.
    These are really weapons where the terrorists use them to 
achieve not so much physical effects, but maximum psychological 
effects.
    And so, beyond taking all reasonable measures to try to 
ensure that they don't have that capacity, ranging from 
improving security as well as intervening in a preemptive 
fashion to ensure that if we have any operational intelligence 
that they are moving in that direction, we head it off.
    Beyond that, there is a real issue of how we would address 
such an event if it occurred, heaven forbid, and that has a lot 
to do with how we will handle the media, societal resilience. 
If we look at the psychological effects in our saturated media 
environment that we operate in and concerns of what has 
happened in even ordinary conventional attacks, whether it is 
Orlando or the more recent events, one really worries about the 
kind of frenzy that would be fueled if they were to get these 
weapons.
    So I am less concerned about the physical aspects of it 
than the psychological impact, which is what terror is all 
about.
    The Chairman. Yeah. No. It's a great point. Which I guess 
leads me to my last question, Colonel Price. Optimistic 
scenarios say that Iraqi military with our help clears ISIS out 
of Mosul in Iraq.
    It is hard for me to see how they get cleared out of Syria 
in the foreseeable future, but as I mentioned at the beginning, 
ISIS itself says, okay, we may lose our physical caliphate, but 
we are going to remain in the virtual caliphate.
    Can you comment on that? Does that mean a diminished 
danger? Just how big a deal is that if ISIS continues on in a 
virtual sense and are we equipped to deal with that? I mean, 
you have talked about the public-private partnerships to fight 
the ideology, but talk a little about a virtual caliphate.
    Colonel Price. Sir, and this goes back to my earlier points 
regarding the difficulties and challenge of saying that you are 
going to destroy the Islamic State. While you can remove their 
military capability, their ability to inspire and potentially 
direct attacks with those that are outside of the theater of 
combat operations poses a significant threat to others.
    As Mr. Jenkins also alluded to earlier, the pathways of 
radicalization are extremely complex. And so this is an area 
where I think that academics will need to do a better job of 
providing more policy-relevant specific recommendations to 
bodies like this in that regard.
    The danger posed with the advent of the internet now is 
that there is no geographic limitations to where this threat 
can reside. And so those are the challenges that I see moving 
forward.
    The Chairman. Okay. Thank you all very much. Helpful and 
yet challenging, and I think that is kind of what the country 
faces going ahead. But thank you all for being here. With that, 
the hearing stands adjourned.
    [Whereupon, at 11:52 a.m., the committee was adjourned.]



      
=======================================================================




                            A P P E N D I X

                           September 21, 2016

=======================================================================

      



      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           September 21, 2016

=======================================================================

      

      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                           September 21, 2016

=======================================================================

      

                  QUESTIONS SUBMITTED BY MR. LANGEVIN

    Mr. Langevin. As we look back to the state of our national security 
15 years ago, I believe that we are safer from the type of orchestrated 
attack that shocked us all on September 11, 2001. However, I am 
concerned that we have not plugged some of the security gaps that still 
threaten us today--gaps that led to the attacks in San Bernardino and 
Orlando, for example--and I worry that the progress of those who wish 
to do us harm has outpaced our ability to defend against nontraditional 
threats. Do you believe that we as a government and as a nation have 
adjusted over the past 15 years--militarily, politically, and 
mentally--so that we can make more rational and effective decisions to 
mitigate the evolving threats before us?
    Mr. Jeffrey. [No answer was available at the time of printing.]
    Mr. Langevin. As we look back to the state of our national security 
15 years ago, I believe that we are safer from the type of orchestrated 
attack that shocked us all on September 11, 2001. However, I am 
concerned that we have not plugged some of the security gaps that still 
threaten us today--gaps that led to the attacks in San Bernardino and 
Orlando, for example--and I worry that the progress of those who wish 
to do us harm has outpaced our ability to defend against nontraditional 
threats. Do you believe that we as a government and as a nation have 
adjusted over the past 15 years--militarily, politically, and 
mentally--so that we can make more rational and effective decisions to 
mitigate the evolving threats before us?
    Mr. Jenkins. I would agree with you that the United States is safer 
now from the type of orchestrated terrorist attack that we suffered on 
September 11, 2001. Over the past 15 years, through its military and 
intelligence efforts, the United States has made progress both in 
degrading al Qaeda's operational capabilities and in creating a more 
hostile operating environment for terrorists. U.S. authorities have a 
much greater chance now of detecting and disrupting terrorist plots 
directed from abroad.
    The rise of the Islamic State of Iraq and the Levant (ISIL) created 
new challenges, both in the Middle East and domestically, but the 
current military campaigns in Iraq and Syria are reducing ISIL's 
territory and its operational capabilities. However, we have to 
anticipate that the defeat of ISIL on the ground could lead to a surge 
in terrorist attacks worldwide as foreign fighters scatter to other 
jihadist fronts or bring their violence home. We also have to recognize 
that the fall of ISIL does not mean the end of the contest--it will 
move underground, with perhaps greater incentive to export violence. 
The terrorist threat will continue.
    While further improvements can still be made in domestic 
intelligence, the United States has expanded its collection effort and 
has improved information-sharing within the federal government and 
between the federal government and state and local authorities. As a 
result, authorities have uncovered and thwarted more than 80 percent of 
the known domestic terrorist plots inspired from abroad since 2001.\1\ 
Without asserting that every single one of these plots would have led 
to a deadly attack had authorities not intervened, it is nonetheless a 
remarkable achievement.
---------------------------------------------------------------------------
    \1\ Counting terrorist plots can be tricky. In my own research, I 
have identified more than 80 cases in which individuals in the United 
States, generally motivated by jihadist ideology, plotted terrorist 
attacks. These were in various states of maturity from half-baked ideas 
to actual attacks. An earlier list of these cases can be in Brian 
Michael Jenkins, Stray Dogs and Virtual Armies: Radicalization and 
Recruitment to Jihadist Terrorism in the United States since 9/11. 
Santa Monica, CA: The RAND Corporation, 2011.
    The Heritage Foundation has published a chronology of 60 jihadist 
terrorist plots to carry out attacks in the United States since 9/11. 
Jessica Zuckerman, Steven Bucci, and James J. Carafano, 60 Terrorist 
Plots since 9/11: Continued Lessons in Counterterrorism. Washington DC: 
The Heritage Foundation, 2013. http://www.heritage.org/research/
reports/2013/07/60-terror
ist-plots-since-911-continued-lessons-in-domestic-counterterrorism. See 
also: David Inserra, ``An Interactive Timeline of Islamist Terror Plots 
since 9/11. TheDailySignal, September 10, 2015. As of December 31, 
2016, the list totals 91 cases. http://dailysignal.com/2015/09/10/a-
timeline
-of-73-islamist-terror-plots-since-911/.
    Obviously, these lists overlap. I would exclude from the Heritage 
chronology attempts like that of the Shoe bomber, the Underwear Bomber 
and other plots against U.S.-bound aircraft or trains where the 
plotting was done outside of the United States along with several other 
cases. Ultimately, these are judgment calls. Adding or excluding a case 
does not change the overall remarkable record of federal and local 
investigators in thwarting terrorist plots. With these exclusions, my 
own list runs to 82 jihadist plots. Of these, 69 (or 84 percent) were 
uncovered and thwarted by the authorities. In the remaining 14 cases, 
the plotters were able to carry out an attempt, although these attempts 
were not all successful. Six of the attacks resulted in fatalities, not 
counting the attacker. Seven cases resulted in injuries. In the 
remaining case, the plotter's bomb failed to explode.
---------------------------------------------------------------------------
    One hundred percent prevention is unrealistic. Further terrorist 
attacks will occur. It is important to keep in mind that the death toll 
from those that have occurred thus far is only a tiny fraction of the 
total volume of ordinary criminal violence in the United States. And, 
together, just two jihadist terrorist attacks (in San Bernardino and 
Orlando) account for 71 percent of the total number of fatalities 
caused by such attacks in the United States since 9/11.\2\
---------------------------------------------------------------------------
    \2\ Ibid. The attacks included above resulted in a total of 89 
fatalities; 49 were killed in the Orlando attack and 14 in San 
Bernardino--a total of 63 (or 70.8 percent of the total.
---------------------------------------------------------------------------
    You describe these in your question as ``nontraditional threats,'' 
and in a way, these attacks--along with others, like the shooting in 
Chattanooga--depart from the previously presumed patterns of 
radicalization.
    Like most of the previous plots, the attacks in San Bernardino and 
Orlando involved a single individual or a tiny conspiracy (a husband 
and wife). The perpetrators of those attacks claimed allegiance to 
ISIL, which, in turn, claimed responsibility but played no active role 
beyond inspiration. Authorities also uncovered al Qaeda propaganda, 
suggesting that the specific group affiliation was not very important 
to the killers.
    The biographies of the Chattanooga and Orlando shooters reveal 
mental health issues, records of substance abuse, histories of 
aggression--these were deeply troubled individuals. Violent jihadist 
ideology reinforced, channeled, and justified their aggressive 
tendencies but ought not to be seen as the sole source of their 
inspiration. A complex skein of motives propelled the shooters to 
action, and it is difficult to weight the contribution of each. Even 
without a jihadist accelerant, these shooters still might have killed.
    Such attacks are not easily prevented. Violent ideologies will 
continue to inspire violent behavior. Counter-radicalization programs 
are worth considering, as long as they don't lead to government 
attempts to patrol ideologies and dictate personal beliefs. And as we 
have often seen in the United States, violent behavior may occur 
without ideological reinforcement. The mental health problems that were 
present in some of the recent terrorist attacks indicate that, in a 
sense, the terrorists are not that far from the other shooters who have 
appeared in our society.
    Intelligence agencies are never omniscient, even in police states. 
Firearms are available, and crude explosive devices can be improvised. 
Instructions are available on the Internet, but decades ago, similar 
instruction manuals were readily available at any library or bookstore, 
and terrorists then built better bombs than they do now.
    Have we as a government and as a nation adjusted over the past 15 
years--militarily, politically, and mentally--so that we can make more 
rational and effective decisions to mitigate the evolving threats?
    I believe we have, militarily and politically. Mentally, in my 
view, we have not. American society is obsessed with security. Our only 
question is, Are we safer now? That is the perspective of victimhood. 
It reflects fear and apprehension. According to recent public opinion 
polls\3\, Americans today fear terrorist attacks as much as they did 
immediately after 9/11. Yet the data show that the terrorist threat has 
been diminished, if not eliminated, and the level of risk to individual 
citizens is minuscule.
---------------------------------------------------------------------------
    \3\ ``Terrorism in the United States,'' Gallup, 2016.
---------------------------------------------------------------------------
    We have to accept that countering terrorism will be an enduring 
task, but we need not cower in fear of defeat or domination by Islamic 
radicals. Instead of fueling fear or overpromising security, we should 
call upon the traditional American attributes of being tough-minded, 
showing true grit, and sticking together in the face of threats. Our 
common defense will come, as it always has, from our collective 
courage.
    Mr. Langevin. As we look back to the state of our national security 
15 years ago, I believe that we are safer from the type of orchestrated 
attack that shocked us all on September 11, 2001. However, I am 
concerned that we have not plugged some of the security gaps that still 
threaten us today--gaps that led to the attacks in San Bernardino and 
Orlando, for example--and I worry that the progress of those who wish 
to do us harm has outpaced our ability to defend against nontraditional 
threats. Do you believe that we as a government and as a nation have 
adjusted over the past 15 years--militarily, politically, and 
mentally--so that we can make more rational and effective decisions to 
mitigate the evolving threats before us?
    Colonel Price. Unfortunately, as long as we choose to live in a 
free society where civil liberties like free speech and freedom from 
illegal searches and seizures exist, terrorists will always have an 
upper hand. With that said, I believe our government has made great 
strides over the past 15 years to improve our ability to mitigate these 
nontraditional threats. Although it is always possible to improve how 
we collect, analyze, and act on intelligence and employ military means 
to mitigate the threat, the two largest growth areas for improving our 
counterterrorism efforts, in my opinion, lie in governance and public 
resilience. Speaking to the former, the same socio-political dynamics 
which helped give rise to the resurgence of the Islamic State and other 
jihadists groups in the region are very much still in play. One of the 
critical lessons learned over the past 15 years, in my opinion, is that 
our (e.g. U.S. and the West more broadly) ability to affect those 
socio-political dynamics in other countries has been and continues to 
be significantly limited. Additionally, the government can do more to 
educate the public on the terrorist threat currently facing the United 
States today. If our civil liberties are to remain status quo, we can 
reasonably expect to see more low-level, unsophisticated attacks 
conducted by those inspired by jihadist narratives, such as the attacks 
in San Bernardino, Orlando, New Jersey/New York, and more recently, 
Ohio State in the months and years ahead. In addition to investing more 
in countering violent extremism (CVE) programs, the government should 
invest in ways the United States can assist other countries in the 
region to offer more credible and alternative government structures 
than that of the Islamic State. Rhetoric is not enough. Improvements to 
our military CT efforts will only be seen on the margins, while 
improvements in governance and public resiliency should be major growth 
areas for U.S. CT moving forward. While we are safer from another 
catastrophic attack like the one we suffered on 9/11, due in large part 
to the improvements we have made across the board in our 
counterterrorism efforts, we are certainly not safe from the jihadist 
threat. I would not agree with the statement that our enemies have 
outpaced our ability to defend against nontraditional threats. I would 
offer, however, that our constitutional rights make it harder to defend 
against terrorism, a point that I do not believe is articulated very 
well to the public.

                                  <all>
</pre></body></html>
